                            OFFICE OF
                     THE INSPECTOR GENERAL


                         U.S. NUCLEAR
                    REGULATORY COMMISSION



                        Review of NRC’s Personnel
                             Security Program

                      OIG-04-A-11        March 25, 2004




                       AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
             http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                            March 25, 2004




MEMORANDUM TO:               William D. Travers
                             Executive Director for Operations



FROM:                        Stephen D. Dingbaum/RA/
                             Assistant Inspector General for Audits


SUBJECT:                     REVIEW OF NRC’S PERSONNEL SECURITY PROGRAM
                             (OIG-04-A-11)


Attached is the Office of the Inspector General’s audit report titled, Review of NRC’s Personnel
Security Program.

Auditors found that despite enhancements made in recent years to NRC’s personnel security
program, further action is needed to bring the program into compliance with agency
requirements and ensure that the agency is responding appropriately to heightened security
concerns since the terrorist attacks of September 11, 2001. Specifically, NRC needs to adhere
to agency security clearance reinvestigation requirements, improve controls to ensure that
employees return their badges and complete the security-termination statement prior to
termination, improve accuracy of automated personnel security data, and begin processing
summer interns for clearances earlier so that NRC can fully benefit from money spent on such
clearances each year.

The report makes 12 recommendations to the Executive Director for Operations to strengthen
controls over the personnel security program.

During an exit conference on March 9, 2004, the Executive Director for Operations provided
comments concerning the draft audit report. We modified the report as we determined
appropriate in response to these comments.

If you have any questions, please contact me at 415-5915 or Beth Serepca at 415-5911.

Attachment: As stated

cc:     William Dean, OEDO
R. McOsker, OCM/RAM
B. Torres, ACMUI
B.J. Garrick, ACNW
M. Bonaca, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
E. Merschoff, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDH/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
J. Dyer, NRR
G. Caputo, OI
P. Bird, HR
C. Kelley, SBCR
M. Virgilio, NMSS
S. Collins, DEDR
A. Thadani, RES
P. Lohaus, STP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, NSIR
R. Wessman, IRO
H. Miller, RI
L. Reyes, RII
J. Caldwell, RIII
B. Mallett RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                                                       Review of NRC’s Personnel Security Program


EXECUTIVE SUMMARY

    BACKGROUND

          The Atomic Energy Act of 1954, as amended, requires all NRC employees to
          have a security clearance, but allows employees to begin working for NRC prior
          to their clearance, provided the Commission determines that such employment is
          in the national interest and the employee does not have access to classified
          information. Today, nearly all NRC employees are permitted to begin work
          before receiving a security clearance, but only after the Division of Facilities and
          Security (DFS) conducts an in-house review, determines there are no factors
          that constitute a security risk, and grants the individual a preappointment
          investigation waiver to begin work. To receive and maintain a security
          clearance, NRC employees must undergo an initial background investigation and
          periodic reinvestigations in accordance with Federal standards. As of November
          2003, 161 NRC employees were working under preappointment investigation
          waivers, 716 had Q clearances, 2,137 had L clearances, and 208 were
          designated as L-High Public Trust.

    PURPOSE

          The audit objectives were to determine whether (1) NRC is in compliance with
          external and internal personnel security requirements and (2) NRC’s personnel
          security program is efficiently managed.

    RESULTS IN BRIEF

          Despite enhancements made in recent years to NRC’s personnel security
          program, further action is needed to (1) bring the program into compliance with
          agency requirements and (2) ensure that the agency is responding appropriately
          to heightened security concerns since the terrorist attacks of September 11,
          2001. Specifically, NRC needs to adhere to agency security clearance
          reinvestigation requirements, improve controls to ensure that employees return
          their badges and complete the security-termination statement prior to
          termination, improve accuracy of data stored in personnel security automated
          files, and begin processing summer interns for clearances earlier so that NRC
          can fully benefit from money spent on such clearances each year.

          Personnel Security Program Not in Compliance With NRC Security
          Clearance Reinvestigation Requirements

          Each year since 2001, the agency has failed to comply with its own
          reinvestigation timeliness requirements. According to NRC Management
          Directive and Handbook (MD) 12.3, “NRC Personnel Security Program,” DFS
          must reevaluate at least every 5 years the continued eligibility of employees with
          Q clearances and LH designations. For those with L clearances, MD 12.3



                                            i
                                            Review of NRC’s Personnel Security Program



requires reevaluations at least every 10 years. Yet, each year since 2001, DFS
has not fully complied with this reevaluation requirement. Furthermore, 426
employees have L clearances based on a reinvestigation that does not meet
Federal standards issued in 1997. Although the Office of Personnel
Management considers these clearances to be acceptable until 2007, it would be
good practice for NRC to bring these employees into compliance with the current
standards sooner. DFS is aware of these issues, but has not devoted adequate
resources to address them. NRC can strengthen its reinvestigation program by
following its own reinvestigation standards and proactively ensuring that all
employee clearances are based on current Federal standards.

NRC Lacks Adequate Management Controls To Ensure That Employees
Return Badges and Complete the Security Termination Statement During
Separation-Clearance Process

NRC requires that employees return their badges and sign a security termination
statement as part of the separation-clearance process. However, some
employees fail to do so because NRC lacks management controls to enforce this
requirement, does not follow existing policies pertaining to consultant and
regional office terminations, and lacks adequate written guidance on badge
return for consultants and regional office employees. If not returned to the
agency, employee badges, which allow access to NRC facilities, could be
misused by individuals with malicious intent toward NRC and its employees.
Furthermore, the agency misses an important opportunity to caution employees
on their responsibility to protect sensitive and classified information.

Personnel Security Program Information Systems Contain Unreliable
Information

Discrepancies between data stored in the personnel security automated files and
the paper files, and inaccuracies in these files, indicate problems with data
reliability. These data reliability issues exist because managers did not ensure
that staff members consistently followed office procedures to enter data into
DFS’s former automated system (the PERSEC Modules). In addition, DFS’s
existing quality control measure for data accuracy was insufficient to prevent
these inaccuracies. Without a new approach to ensure data reliability, NRC
lacks assurance that these problems will not recur in the agency’s new system,
the Integrated Personnel Security System.

NRC Fails To Benefit From Dollars Spent on Summer Intern Security
Clearances

NRC spends approximately $8,100 each year on OPM background
investigations for summer interns; however, in the majority of cases, the interns
terminate their NRC employment before OPM responds with an investigative
report or before NRC can adjudicate the results so that a clearance could be
granted. This failure to benefit from the OPM background investigation occurs

                                 ii
                                               Review of NRC’s Personnel Security Program



     because NRC’s requests for these investigations are made too late to receive a
     timely response from OPM. Additionally, when summer interns terminate
     employment prior to the return of OPM’s investigative report, NRC does not
     cancel the investigation in progress in accordance with OPM policy. NRC needs
     to revise its timeline for hiring summer interns so that the agency can benefit
     from the money spent on background investigations for these individuals and to
     better comply with OPM requirements concerning cancellations.

RECOMMENDATIONS

     This report makes 12 recommendations to the Executive Director for Operations
     to strengthen controls over the personnel security program. A consolidated list
     of recommendations appears on page 20 of this report.

AGENCY COMMENTS

     On March 9, 2004, the Executive Director for Operations provided comments
     concerning the draft audit report. We modified the report as we determined
     appropriate in response to these comments. Appendix B contains both NRC’s
     comments and our specific response to each.




                                    iii
                           Review of NRC’s Personnel Security Program




[Page intentionally left blank.]




               iv
                                                   Review of NRC’s Personnel Security Program


ABBREVIATIONS AND ACRONYMS

    ADM              Office of Administration (NRC)
    ANACI            Access National Agency Check with Inquiries
    CFR              Code of Federal Regulations
    DFS              Division of Facilities and Security (NRC)
    DOI              U.S. Department of Interior
    FY               Fiscal Year
    HR               Office of Human Resources (NRC)
    IPSS             Integrated Personnel Security System
    LH               L – High Public Trust
    MD               Management Directive and Handbook
    NACLC            National Agency Check With Law and Credit
    NRC              U.S. Nuclear Regulatory Commission
    OCIO             Office of the Chief Information Officer (NRC)
    OGC              Office of the General Counsel (NRC)
    OIG              Office of the Inspector General (NRC)
    OPM              U.S. Office of Personnel Management
    PERSEC Modules   Personnel Security Modules
    SSBI             Single Scope Background Investigation
    SSBI – PR        Single Scope Background Investigation – Periodic Reinvestigation




                                       v
                           Review of NRC’s Personnel Security Program




[Page intentionally left blank.]




               vi
                                                                                 Review of NRC’s Personnel Security Program


TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS AND ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
I.       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
II.      PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
III.     FINDINGS          ..........................................................4
                   A.         NRC IS NOT IN FULL COMPLIANCE W ITH AGENCY SECURITY CLEARANCE
                              REINVESTIGATION REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                   B.         NRC LACKS ADEQUATE MANAGEMENT CONTROLS TO ENSURE THAT
                              EMPLOYEES RETURN BADGES AND COMPLETE THE SECURITY TERMINATION
                              STATEMENT DURING SEPARATION-CLEARANCE PROCESS . . . . . . . . . . . . . 9

                   C.         PERSONNEL SECURITY PROGRAM INFORMATION SYSTEMS CONTAIN
                              UNRELIABLE INFORMATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                   D.         NRC FAILS TO BENEFIT FROM DOLLARS SPENT ON SUMMER INTERN
                              SECURITY CLEARANCES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

IV.      CONSOLIDATED LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . 20
V.       AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
         APPENDICES
                   A.         SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
                   B.         AGENCY COMMENTS AND OIG RESPONSE . . . . . . . . . . . . . . . . . . 24




                                                                 vii
                           Review of NRC’s Personnel Security Program




[Page intentionally left blank.]




              viii
                                                                         Review of NRC’s Personnel Security Program


I. BACKGROUND

                  Federal agency security programs have received increased attention in recent
                  years because of (1) espionage activities that have had a significant impact on
                  national security and (2) concerns raised in the aftermath of the terrorist attacks
                  of September 11, 2001. These security programs address agency physical
                  security protections — the physical and technological barriers that protect a
                  facility from intrusion by unauthorized vehicles, individuals, or packages — and
                  personnel security protections. Personnel security programs implement
                  measures to ensure that agency staff can be trusted to work with and protect
                  classified information and to prevent the hiring of employees who might
                  otherwise be untrustworthy or unsuitable for Federal Government employment.

                  All Government employees must undergo a background investigation to work for
                  the Federal Government. The type of investigation required depends on the type
                  of work the individual will perform. For example, Federal employees needing
                  Confidential, Secret, and L clearances undergo an Access National Agency
                  Check With Inquiries (ANACI), while a Single-Scope Background Investigation
                  (SSBI) is required for Top Secret and Q clearances.1 Each of these
                  investigations involves various record checks (e.g., law enforcement, criminal
                  history, financial) and contact with references. However, the SSBI is more
                  extensive and involves personal interviews with the subject and references, while
                  the ANACI does not include a subject interview and relies on written information
                  provided by references. Individuals with Q and L clearances must also undergo
                  periodic reinvestigations; reinvestigations for Q clearances are more extensive
                  and occur more frequently than those for L clearances. Government employees
                  who will not be working with classified information are required to undergo at
                  least an investigation to assess their “suitability”2 for Federal employment.

                  NRC’s Personnel Security Program

                  The Atomic Energy Act of 1954, as amended, requires all NRC employees to
                  have a security clearance, but allows employees to begin working for NRC prior
                  to their clearance — provided the Commission determines that such
                  employment is in the national interest and the employee does not have access to
                  classified information. Today, nearly all NRC employees are permitted to begin
                  work prior to receiving a security clearance, but only after the Division of


         1
          To work with Confidential, Secret, or Top Secret classified information, individuals must receive at least the
corresponding level of security clearance (i.e., Confidential, Secret, Top Secret). Pursuant to the Atomic Energy Act
of 1954, as amended, NRC uses a separate system; employees receive either an L clearance, which equates to a
Confidential or Secret clearance, or a Q clearance, which equates to a Top Secret clearance.
         2
           According to Title 5, Part 731, Code of Federal Regulations (5 CFR Part 731), “Suitability,” the
determination of suitability for Federal employment is based on an individual’s character or conduct that may have
an impact on the integrity or efficiency of the service. These determinations of suitability for Federal employment are
characterized in 5 CFR Part 731 as different from determinations of eligibility for assignment to sensitive national
positions.

                                                           1
                                             Review of NRC’s Personnel Security Program



Facilities and Security (DFS) conducts an in-house review of the prospective
employee’s background information as reported by the individual, credit history,
and criminal history; evaluates the results; and determines there are no factors
that constitute a security risk to the agency. Based on this review, NRC grants
an initial approval for the employee to begin work. This approval is referred to as
a preappointment investigation waiver.

After NRC grants this initial approval to begin work (with no access to classified
information), the agency requests a full background investigation, appropriate for
either an L or Q clearance, from the Office of Personnel Management (OPM).
Due to an increase in background investigation requests since September 11,
2001, OPM is taking longer to complete its work than in the past. According to a
DFS staff member, although NRC routinely requests (and pays for) the standard
120-day turnaround on background investigations, it takes OPM about 6 to 9
months to respond for L-clearance investigations and 12 to 18 months for Q-
investigation requests.

After the OPM background investigation is returned to NRC, DFS staff evaluate
the subject in light of the OPM investigative report information. Based on the
issues raised, it may take DFS several months to more than a year to complete
this review and make a recommendation to the DFS Director to grant or deny a
security clearance. As a result, some NRC employees work for up to 2 years at
NRC before receiving a security clearance.

In addition to granting employees Q and L clearances, NRC has an additional
“L–High Public Trust” (LH) designation that it uses for employees who hold high
public trust positions (e.g., resident inspectors). These employees do not require
a Q clearance because they do not work with Secret or Top Secret Restricted
Data or Top Secret National Security Information. Individuals designated as LH
are initially investigated at the Q level. These individuals are then reinvestigated
at L level, but more frequently than those with regular L clearances. As of
November 2003, 161 employees were working under preappointment
investigation waivers, 716 employees had Q clearances, 2,137 had L clearances,
and 208 were designated as LH. [See Figure 1.]




                                  2
                                                  Review of NRC’s Personnel Security Program




           NRC Employees in Each Clearance Category as of
                          November 2003
    Preappointment           N = 3,222
        Waiver
       5% = 161


       LH
     6% = 208                                            Q
                                                      22% = 716




           L
       67% = 2137




                        Q    L   LH    Preappointment Waiver




Figure 1.

        NRC maintains personnel security information on employees in paper files and in
        an automated data system referred to as the Personnel Security (PERSEC)
        Modules. In December 2003, DFS implemented a new automated data system,
        the Integrated Personnel Security System (IPSS), to replace the PERSEC
        Modules. IPSS is intended to be more efficient and user-friendly with more
        reporting capabilities than the PERSEC Modules, which are viewed as
        cumbersome and inadequate. Initially scheduled for implementation in May 2003,
        IPSS was not installed on the NRC server for testing until September 30, 2003.
        As of December 2003, NRC had completed the transition to IPSS and had
        stopped entering data into the PERSEC Modules.

        During FY 2003, NRC spent $971,710 on background investigation requests for
        employees, contractors, and licensees. Currently, there are five DFS staff
        members and four contractor staff working to process employees for clearance
        under NRC’s personnel security program.


                                       3
                                                     Review of NRC’s Personnel Security Program



II. PURPOSE

          The audit objectives were to determine whether (1) NRC is in compliance with
          external and internal personnel security requirements and (2) NRC’s personnel
          security program is efficiently managed. This audit report pertains to NRC’s
          personnel security program for employees; a report issued in November 2003
          (OIG-04-A-02) addressed the agency’s personnel security policies and practices
          for contractors.


III. FINDINGS

          Despite enhancements made in recent years to NRC’s personnel security
          program, further action is needed to (1) bring the program into compliance with
          agency requirements and (2) ensure that the agency is responding appropriately
          to heightened security concerns since the terrorist attacks of September 11,
          2001. Specifically,

          ‚      NRC should strengthen its security clearance reinvestigation program by
                 adhering to agency timeliness requirements and proactively ensuring that
                 all employee clearances are based on current investigative standards.

          ‚      NRC lacks adequate management controls to ensure that, prior to
                 termination, employees complete the personnel security portion of the
                 separation-clearance process.

          ‚      NRC’s former and current automated personnel security databases
                 contain unreliable information.

          ‚      NRC frequently does not benefit from money spent to obtain security
                 clearances for summer interns.


     A. NRC IS NOT IN FULL COMPLIANCE WITH AGENCY SECURITY CLEARANCE
     REINVESTIGATION REQUIREMENTS

          All NRC employees are required to have current security clearances in
          accordance with Federal investigative standards. While NRC is currently in
          compliance with these Federal standards, each year since 2001, the agency has
          failed to comply with its own reinvestigation timeliness requirements.
          Furthermore, 426 employees have L clearances based on a reinvestigation that
          does not meet Federal standards issued in 1997. Although OPM considers these
          clearances to be acceptable until 2007, it would be good practice for NRC to bring
          these employees into compliance with the current standards sooner. DFS is
          aware of these issues, but has not devoted adequate resources to address them.
          NRC can strengthen its reinvestigation program by following its own

                                           4
                                                                      Review of NRC’s Personnel Security Program

                 reinvestigation standards and proactively ensuring that all employee clearances
                 are based on current Federal standards.

                 Atomic Energy Act Requires Security Clearances for Employees

                 NRC employees must have a security clearance3 and their clearances must be
                 reapproved on a regular basis in accordance with Federal investigative standards
                 that have been in effect since October 1997. [See Table 1.]

        Table 1.



                  Security Clearance Investigation Requirements


 Clearance            Initial              Initial           Reinvestigation          Reinvestigation
    Type          Investigation         Investigation         Requirements                 Cost
                  Requirements              Cost
                                                                                            $1,705.
       Q          Single Scope              $2,835.           Single Scope
                   Background                                  Background
                  Investigation                               Investigation
                      (SSBI)                                     Periodic
                                                             Reinvestigation
                                                                (SSBI-PR)
                                                             Every 5 Years

       L              Access                 $135.           National Agency                 $120.
                     National                                Check With Law
                  Agency Check                                 and Credit
                  With Inquiries                                 (NACLC)
                     (ANACI)                                 Every 10 Years

      LH          Single Scope              $2,835.          National Agency                 $120.
                   Background                                Check With Law
                  Investigation                                and Credit
                      (SSBI)                                     (NACLC)
                                                              Every 5 Years




        3
          NRC employees are permitted to begin work prior to their clearance, provided the Commission has
determined it to be in the Nation’s interest, the DFS Director determined such employment would not pose a security
threat, and the employee does not have access to classified information.

                                                         5
                                             Review of NRC’s Personnel Security Program

These standards require the initiation of Q-clearance reinvestigations every 5
years at the SSBI-Periodic Reinvestigation (SSBI–PR) level and L-clearance
reinvestigations every 10 years at the National Agency Check With Law and
Credit (NACLC) level. To fulfill these requirements Management Directive and
Handbook (MD) 12.3, “NRC Personnel Security Program,” sets an even higher
standard. MD 12.3 specifically states that “DFS must reevaluate the continued
eligibility of those individuals cleared at the Q level” at least every 5 years. For
those with L clearances, MD 12.3 requires reevaluations at least every 10 years.
There are no Federal standards for NRC’s LH designation, but the agency has
established that this designation requires reevaluation based on an NACLC at
least every 5 years. While these reinvestigation requirements are defined in MD
12.3, DFS lacks specific performance measures assessing the agency’s
compliance with the targets.

According to an OPM official, the reinvestigation standards that existed prior to
1997 are no longer acceptable today. This official said that the 1997 standards
were not accompanied by a directive to bring all employees into compliance
immediately, however, agencies were expected to comply as quickly as possible,
given monetary and time considerations. A DFS manager explained that the
1997 standards reflected a strengthening of investigative requirements for L
clearances and a shortening of the time period covered for Q clearance
investigations.

Personnel Security Program Not in Compliance With NRC Security
Clearance Reinvestigation Requirements

Each year since 2001, DFS has not fully complied with the agency’s
reinvestigation requirement that employees with Q clearances and LH
designations be reevaluated no later than 5 years after the last evaluation and
that those with L clearances be reevaluated no later than 10 years after the last
evaluation. As of January 2004, DFS had not submitted background
reinvestigation requests to OPM for 142 of 247 employees due for reevaluation
during 2003. Furthermore, reinvestigation requests for 63 employees whose
reevaluations were due in 2002 were not submitted until the end of 2003.
Reinvestigation requests for 125 employees whose reevaluations were due during
2001 were also submitted too late for employees to be reevaluated during that
year; of the 125 cases, 97 were submitted in 2002 and 28 in 2003. [See Table 2.]
By failing to submit these reinvestigation requests to OPM in the year the
reevaluation was required, NRC did not comply with its own requirement to
reevaluate these employees during that year. NRC can strengthen its
reinvestigation program by adhering to the timeliness requirements established in
MD 12.3.




                                  6
                                                                     Review of NRC’s Personnel Security Program

         Table 2.



             Number of NRC Reinvestigation Requests Not Sent to OPM During Year
                            Reevaluation By NRC Was Required


  Year                   2001                         2002                                   2003
  Number                  125                           63                                    142


                 Another area for improvement pertains to employees whose last security
                 clearance reinvestigation does not meet current standards for these
                 investigations. OIG identified that 33 of 98 personnel security files4 reviewed for
                 this audit reflected L clearances based on a background investigation that is no
                 longer appropriate. Subsequent to an exit conference held February 2, 2004,
                 OIG learned that there are 426 NRC employees with L clearances not based on
                 the current standards.

                 Although DFS is addressing these issues, progress is slow. For example, in April
                 2003, the single DFS staff member assigned to manage the reinvestigation
                 program had reported that reinvestigation requests had not been made to OPM
                 for 91 employees due for reevaluation in 2001 and 2002. Competing work
                 priorities, difficulties in locating some employee files, and slow responsiveness
                 from agency employees to complete the required forms were hampering this
                 effort. By the end of October 2003, the effort to identify individuals with outdated
                 clearances and submit these names to OPM for reinvestigation had not
                 progressed significantly.5

                 Until recently, DFS’ general approach toward clearances based on the old
                 standard was to correct the cases that staff identified in the course of the office’s
                 day-to-day business. More recently, staff have taken a more active approach to
                 identifying these cases so that the current reinvestigation standards can be
                 applied. According to DFS staff, implementation of the office’s new automated
                 personnel security system (IPSS) will facilitate identification of these cases. The
                 system will cross check reinvestigation type with clearance type and will flag
                 clearances that are based on the outdated investigation type.




         4
         The process for selecting the 98 files for review was designed to obtain a random sample that would be
representative of the overall population of NRC employees.
         5
          Only in November and December 2003 — following a second meeting with OIG to discuss the backlog —
was the staff member able to complete the effort.

                                                         7
                                            Review of NRC’s Personnel Security Program

DFS Has Not Applied Adequate Resources To Correct Reinvestigation
Issues

While DFS managers are aware that many employee reinvestigation requests are
submitted too late to allow reevaluation in the year it is required, and that a
number of employees have clearances based on an outdated standard, the office
has not devoted adequate resources to address these issues in a timely manner.
As noted above, only one staff member is assigned to handle the reinvestigation
program. This involves identifying employees for reinvestigation, sending
employees the required security forms for completion, and submitting
reinvestigation requests to OPM. This responsibility is in addition to the
employee’s routine duties.

DFS has not applied existing agency resources to fully identify individuals with L
clearances based on an outdated standard so that the correct standard can be
applied. While DFS staff explained that it was cumbersome to search in the
PERSEC Modules for employee clearances not based on current requirements,
staff were aware that an Office of Administration (ADM) staff member could
perform such a search. Yet, DFS staff never asked the ADM staff member to
pursue such an effort. A DFS manager explained that while it would be desirable
to identify and request new reinvestigations for all employees falling into this
category, it is not a requirement and, therefore, other office responsibilities take
precedence. Subsequent to the exit conference, OIG requested that the ADM
staff member determine the number of employees with L clearances based on the
old standard and learned that there are 426 individuals in this category.

DFS staff do not perceive the late requests for 2003 reinvestigations or the failure
to ensure that L clearances are based on current standards as program
weaknesses. According to a DFS manager, clearances for employees with
overdue reinvestigations are not in jeopardy as long as DFS has sent the
employees a request to complete the reinvestigation forms. The manager said
that clearances do not expire if the employees have received their letter initiating
the reinvestigation processing and, according to a DFS staff member, all such
letters have been sent.

Although OPM officials said NRC’s interpretation of Federal requirements is
acceptable, they also explained that Federal agencies fulfill the requirement in
various ways, ranging from NRC’s approach to others that adjudicate
reinvestigation results in the year the reinvestigation is due. OIG contacted three
Federal agencies and found that all adhered to a stricter interpretation than
NRC’s. Personnel security officials at each of these agencies said they strive to
submit reinvestigation requests to OPM in the year the reinvestigation is due for
initiation. One of the agencies goes a step further by trying to submit requests 3
to 4 months prior to the due date. While NRC’s reinvestigation program is
operating in compliance with Federal requirements, the agency does not comply
with its own timeliness requirements.




                                  8
                                                 Review of NRC’s Personnel Security Program


     Summary

     NRC can strengthen its security clearance reinvestigation program by devoting
     greater resources to ensure that employees are reinvestigated and reevaluated in
     accordance with agency requirements and proactively ensuring that clearances
     are based on current reinvestigation standards. By doing so, NRC can better
     assure it is taking the necessary measures in this post-September 11
     environment to protect classified information and prevent the retention of
     employees who are untrustworthy or unsuitable for Government employment.

     RECOMMENDATIONS

     OIG recommends that the Executive Director for Operations:

     1.     Submit clearance reinvestigation requests to OPM in time to allow NRC to
            evaluate results in the year the reevaluation is due in accordance with MD
            12.3.

     2.     By the end of FY 2004, submit requests for OPM reinvestigations for
            employees with clearances not based on current standards.

     3.     Establish performance measures assessing the timeliness of NRC’s
            reinvestigation program.


B. NRC LACKS ADEQUATE MANAGEMENT CONTROLS TO ENSURE THAT
EMPLOYEES RETURN BADGES AND COMPLETE THE SECURITY TERMINATION
STATEMENT DURING SEPARATION-CLEARANCE PROCESS

     NRC requires that employees return their badges and sign a security termination
     statement as part of the separation-clearance process. However, some
     employees fail to do so because NRC lacks management controls to enforce this
     requirement, does not follow existing policies pertaining to consultant and regional
     office terminations, and lacks adequate written guidance on badge return for
     consultants and regional office employees. If not returned to the agency,
     employee badges, which allow access to NRC facilities, could be misused by
     individuals with malicious intent toward NRC and its employees. Furthermore, the
     agency misses an important opportunity to caution employees on their
     responsibility to protect sensitive and classified information.

     DFS’s Role in Separation-Clearance Process

     NRC requires that individuals separating from the agency obtain certain approvals
     before they receive their final salary payment. Management Directive and
     Handbook (MD) 10.8, “Clearances Before Separation or Reassignment,” provides
     specific instructions regarding the procedures to be followed and steps involved in
     obtaining clearance before separation. Generally, employees must handcarry
     NRC Form 270, “Separation Clearance,” to about 15 offices where a clearing

                                      9
                                                                       Review of NRC’s Personnel Security Program


                  official signs off to indicate that the employee has no financial, property, or other
                  obligations to that particular office. For headquarters employees, 1 of these 15
                  offices is DFS, where a clearing official checks “yes” or “no” to indicate whether
                  employee has completed Form 136, “Security Termination Statement,” and
                  returned his/her badge. The DFS clearing official then signs off on the
                  separation-clearance form in either case. The process is different for regional
                  offices. These offices are responsible for recovering the badge and having the
                  employee complete the security termination statement. According to MD 10.8,
                  the regional offices are to forward the completed security termination statement to
                  DFS for retention and to coordinate with DFS concerning badge recovery and
                  termination of keycard access and security clearance. MD 10.8 does not specify
                  what the regional offices are to do with the retrieved badges, although MD 12.1,
                  “NRC Facility Security Program,” states that badges must be returned to DFS.

                  Until recently,6 the last stop in the separation-clearance process was the Payroll
                  Office, where a clearing official would review the form, determine whether the
                  individual had any outstanding debts, and whether all signature blocks were
                  completed. Now the last stop in the process is the Office of Human Resources
                  (HR), where designated staff review the separation-clearance form for
                  completeness and employee indebtedness before authorizing final pay action.

                  The separation process differs for consultants, who are viewed as employees but
                  do not need to complete the separation-clearance form prior to termination. MD
                  10.6, “Use of Consultants and Experts,” directs that when an office decides to
                  terminate (or not extend) a consultant’s appointment, the cognizant office should
                  notify HR. HR is then required to notify DFS so that DFS can terminate the
                  consultant’s security clearance and obtain from the consultant a completed
                  security termination statement. MD 10.6 does not specifically mention badge
                  return and therefore does not specify who is responsible for ensuring that badge
                  return occurs.

                  Not All Employees Return Badge, Complete Security Termination Statement

                  Based on a review of records for a random sample of NRC former employees,
                  OIG learned that some employees failed to return their badges or complete the
                  security termination statement prior to termination. Furthermore, NRC does not
                  attempt to withhold final pay action for individuals who failed to complete these
                  steps in the separation-clearance process.




         6
         On November 2, 2003, NRC transitioned to the Department of Interior’s (DOI) Federal Personnel/Payroll
System. HR, which serves as a liaison with DOI on payroll issues, is now the final stop in the separation-clearance
process and subsequently reviews the separation clearance form for completeness.

                                                         10
                                                                        Review of NRC’s Personnel Security Program


                  Auditors reviewed records for 667 of 227 former employees who separated during
                  FY 2003 and found that:

                  ‚        DFS lacked indication that a badge had been returned for 13 individuals (5
                           regional employees, 4 consultants, and 4 headquarters employees).

                  ‚        DFS also lacked completed security termination statements for 16 former
                           employees (5 regional employees, 7 consultants, and 4 headquarters
                           employees).

                  ‚        DFS was unaware that 7 of the 66 were no longer active employees. Six
                           of these individuals were consultants.

                  Based on a statistical analysis of this data, DFS could lack information concerning
                  badge return for up to 29 percent (66 employees) of those who terminated NRC
                  employment during FY 2003.

                  DFS staff were aware that staff separating from NRC occasionally fail to complete
                  the DFS portion of the separation-clearance process. One DFS staff member
                  explained that if an employee terminates without completing the security
                  termination statement and/or returning the badge, DFS mails the individual a
                  letter requesting that they return either the completed security termination
                  statement, the badge, or both to NRC. However, the DFS staff member could not
                  recall that failure to complete this part of the process had ever resulted in a
                  withholding of final pay action.

                  A Payroll Office manager explained that when employees brought their
                  separation-clearance form to the Payroll Office (as the last stop in the separation-
                  clearance process), one of several clearing officials would review the signature
                  blocks on the form to ensure that all were signed. If any signature blocks were
                  blank, the clearing official would not authorize final pay action and would direct
                  the employee back to the appropriate office to complete the process. However,
                  the manager said that Payroll Office staff were never instructed to review the
                  yes/no boxes in the DFS portion of the separation-clearance form to determine
                  whether the specific steps were actually fulfilled. Therefore, the manager
                  explained, the Payroll Office would not withhold final pay action based on
                  information in the yes/no boxes.

                  OIG identified three underlying causes for the issues found through the file
                  review:

                  ‚        NRC lacks a management control to enforce the DFS portion of the
                           separation-clearance process.



         7
          The 66 files were selected randomly from the 227 in order to obtain a sample that was reflective of all
terminating NRC employees.

                                                          11
                                            Review of NRC’s Personnel Security Program


‚      Breakdowns in communication hinder the consultant termination process.

‚      Regional communication with headquarters concerning terminations is
       ineffective.

NRC Lacks Management Control To Enforce Badge Return Portion of
Separation-Clearance Process

Under current NRC policy, the agency cannot withhold final pay action as a
means of motivating employees to return their badges as part of the separation-
clearance process. Despite wording in MD 10.8 indicating that final pay action
could be withheld for failure to complete the process, an Office of the General
Counsel (OGC) attorney explained that based on Federal regulations and agency
guidance, an employee’s failure to turn in a security badge does not create a debt
owed by the employee to the agency that can be recovered through
administrative offset of the employee’s salary. However, the attorney agreed that
NRC could explore certain policy options that might not be legally objectionable.
One such option could be to modify the Form 270 to eliminate the yes/no boxes,
and rely on signature alone as indication the step has been accomplished. In
OIG’s view, this would offer the agency a stronger tool for increasing control over
the return of badges.

Breakdowns in Communication Hinder Consultant Termination Process

NRC has not been following its process for terminating consultants; consequently,
the agency lacks assurance that these employees will complete the security
termination statement as required or that their security clearance and access to
NRC will be terminated upon separation from the agency. Furthermore, NRC
management directives do not specify who is responsible for badge retrieval from
these individuals.

Two specific communication breakdowns have occurred in NRC’s consultant
termination process. First, while MD 10.6 specifies that cognizant offices need to
notify HR when consultants are terminated, such notification is not routinely
provided. Second, even when HR is aware that a consultant has been
terminated, until recently, DFS was not given notification of the termination. As a
result, DFS has been unable to conduct its portion of the process described in the
MD. After discussing the matter with OIG auditors, HR has initiated a practice of
adding terminated consultants to a regularly published list of terminated
employees which is developed and circulated to certain NRC offices, including
DFS, each week. Nevertheless, while MD 12.1 specifies generally that employee
badges must be returned to DFS, there is no guidance in either MD 12.1, 10.6, or
10.8 describing procedures for the return of consultant badges.




                                12
                                           Review of NRC’s Personnel Security Program


Regional Communication with Headquarters Concerning Terminations Is
Ineffective

DFS is not receiving security termination statements for all regional employees
who terminate and is not being notified in all cases as to whether these
employees’ badges were returned. While MD 10.8 requires the regions to
forward completed security termination statements to DFS and to coordinate with
DFS concerning badge recovery, the necessary communication and coordination
with DFS is not occurring. NRC needs to better describe its expectations for
regional offices concerning badge return and to better enforce its requirements
concerning the security termination statement to facilitate DFS awareness of
regional actions concerning terminating employees.

SUMMARY

DFS needs to increase its control and knowledge over the employee-termination
process so that it can fully account for the badges of former employees and
ensure that security termination statements are signed. By instituting a stronger
means to encourage employees to return their badges as part of the separation-
clearance process, implementing existing policies concerning consultants and
regional offices, and clarifying guidance concerning badge return, NRC will
reduce the risks posed by employees who fail to undergo this portion of the
clearance process.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

4.     Eliminate the yes/no boxes from the DFS portion of the separation-
       clearance form, and require signature for steps completed in this part of
       the process.

5.     Fully implement existing agency policy concerning termination of
       consultants.

6.     Fully implement existing agency policy concerning termination of regional
       employees.

7.     Issue agency guidance specifically concerning return of consultant and
       regional employee badges to DFS.




                                13
                                                                   Review of NRC’s Personnel Security Program


                 C. PERSONNEL SECURITY PROGRAM INFORMATION SYSTEMS CONTAIN
                 UNRELIABLE INFORMATION

                 Despite requirements that managers maintain reliable information for
                 decisionmaking, discrepancies between data stored in the personnel security
                 automated files and the paper files, and inaccuracies in these files, indicate
                 problems with data reliability. These data reliability issues exist because
                 managers did not ensure that staff members consistently followed office
                 procedures to enter data into DFS’s former automated system (the PERSEC
                 Modules). In addition, DFS’s existing quality control measure for data accuracy
                 was insufficient to prevent these inaccuracies. Without a new approach to ensure
                 data reliability, NRC lacks assurance that these problems will not recur in IPSS.
                 NRC’s personnel security program needs to require system users to follow
                 consistent data entry practices and to conduct additional quality control
                 procedures for data accuracy.

                 Discrepancies Between DFS Automated and Paper Files

                 DFS cannot rely on the accuracy of the personnel security clearance history
                 information in its paper and automated files. A comparison of personnel security
                 information recorded in 968 paper files with personnel security information
                 contained in the corresponding PERSEC Module files revealed discrepancies in
                 58 of the file pairs. The most frequent discrepancy pertained to first clearance
                 date; in 44 such cases, the date that NRC first granted clearances for individuals
                 was recorded differently in the automated system than in the paper files. Also
                 frequent were discrepancies concerning the first type of clearance an individual
                 held at NRC; auditors identified 38 such inconsistences. The comparison
                 between the automated system and the paper files also identified 10
                 discrepancies in employee current clearance date and 7 discrepancies in current
                 clearance type. In 58 cases, the PERSEC Modules contained no information
                 concerning the date that NRC granted the individual’s preappointment
                 investigation waiver and in 4 cases the date was incorrect. Finally, DFS had no
                 automated personnel information on file for two consultants included in the
                 sample. Based on a statistical analysis of this information, personnel security
                 files for as many as 2,223 employees (69 percent of employees) could contain at
                 least one of the type of discrepancies noted above and automated data could be
                 missing for up to 193 employees (6 percent of employees). [See Table 3.]




        8
         Auditors pulled 98 paper files for review. There were no corresponding automated records in the PERSEC
Modules for 2 of the paper files, therefore only 96 file pairs were available for comparison.

                                                      14
                                           Review of NRC’s Personnel Security Program


Table 3.



     Discrepancies Between Personnel Security
             Automated and Paper Files
                              N = 98


 Type of Discrepancy              Number of Discrepancies


 Date of First Clearance                      44
 Type of First Clearance                      38
 Date of Current Clearance                    10
 Type of Current Clearance                     7
 Date of Preappointment                       62
 Investigation Waiver
 File Missing from PERSEC                      2
 Modules

DFS is aware that the PERSEC Modules contain some unreliable information and
that this incorrect information was transferred into IPSS as part of the system
transition process. DFS staff also are aware of other IPSS data reliability issues
that resulted from the data transfer. Therefore, a DFS manager explained, DFS
is now involved in a data cleanup effort to ensure that current employee
information in IPSS is accurate. The manager could not estimate when the
cleanup effort would be complete and explained that it was being carried out
during employee overtime hours on an ad hoc basis.

During the exit conference, the agency commented that there are no
discrepancies between the automated and paper files, but that these two sets of
files track different information with regard to preappointment waiver date, first
clearance type, and first clearance date. Despite these agency comments,
information in this report concerning discrepancies has not been modified. This is
because the information provided during the exit conference does not adequately
explain the discrepancies concerning current clearance type and date and does
not explain why two files are missing from the automated records.




                                15
                                             Review of NRC’s Personnel Security Program


Data Entry Procedures Not Enforced; Quality Control Measure Insufficient

Inaccuracies in PERSEC Modules data exist because managers did not ensure
that staff consistently followed office procedures to enter data into the PERSEC
Modules. Furthermore, the PERSEC Modules lack features to prevent data entry
mistakes. DFS staff explained that IPSS, the replacement for the PERSEC
Modules, contains internal checks to facilitate accuracy and will prevent these
types of data discrepancies from occurring. However, these features will not
eliminate the possibility of inaccurate data entry. For example, while IPSS will not
allow the user to enter the wrong type of investigation into the system for certain
clearance types and will not allow illogical dates to be entered, it will not prevent
errors if the dates are logical. DFS managers said employees responsible for
data entry will be provided with instructions for using the new system correctly,
however, there are no plans for requiring these staff to follow the procedures or to
check that data entered is accurate.

Another reason for inaccuracies is that the single quality control measure utilized
by DFS to ensure data accuracy failed to prevent these inaccuracies from
occurring. According to a DFS staff member, agencies are required every 6
months to report their personnel security data to OPM, and NRC has provided
this information to OPM two or three times since mid-2002. According to the staff
member, OPM compares the agency information to its information and provides
NRC with a report highlighting any discrepancies, for example, in birth dates or
social security numbers. NRC is required to correct the information and in some
cases, provide supporting documentation. Despite this quality control measure,
OIG found the discrepancies between the automated and paper files mentioned
earlier in this section.

Although the ongoing IPSS data cleanup effort seems likely to ensure an initial
level of accuracy in the IPSS data, DFS officials characterized the cleanup
process as a one-time effort. Quality control measures have not been
established to prevent subsequent deterioration of data quality in IPSS.

SUMMARY

To better ensure the reliability of the information contained in its automated
systems, DFS needs to implement consistent data entry guidance to system
users and conduct quality control procedures for data accuracy.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

8.     Issue specific data entry guidance to DFS staff responsible for entering
       data into IPSS.




                                 16
                                                 Review of NRC’s Personnel Security Program


     9.     Formalize the ongoing IPSS data cleanup effort by documenting this
            effort. This documentation should include a discussion of resources
            assigned to the effort and a timeline for completion.

     10.    Establish and implement a procedure to validate data accuracy at least
            annually.


D. NRC FAILS TO BENEFIT FROM DOLLARS SPENT ON SUMMER INTERN
SECURITY CLEARANCES

     NRC spends approximately $8,100 each summer on OPM background
     investigations for summer interns; however, in the majority of cases, the interns
     terminate their NRC employment before OPM responds with an investigative
     report or before NRC can adjudicate the results so that a clearance could be
     granted. This failure to benefit from the OPM background investigation occurs
     because NRC’s requests for these investigations are made too late to receive a
     timely response from OPM. Additionally, when summer interns terminate
     employment prior to the return of OPM’s investigative report, NRC does not
     cancel the investigation in progress in accordance with OPM policy. NRC needs
     to revise its timeline for hiring summer interns so that the agency can benefit from
     the money spent on background investigations for these individuals and to better
     comply with OPM requirements concerning cancellations.

     NRC’s Summer Intern Program

     Each summer, NRC hires between 57 and 65 students to participate in the
     agency’s summer intern program. These students are hired for a maximum of 89
     days and, according to an HR staff member, about 25 percent return the following
     summer for a second summer internship. In accordance with the Atomic Energy
     Act of 1954, as amended, summer interns — as NRC employees — are required
     to have either a security clearance prior to employment or to receive a
     preappointment investigation waiver following an in-house DFS background
     investigation. As is the case with NRC employees in general, most interns begin
     their summer employment without a security clearance, but with the
     preappointment investigation waiver. Following the issuance of this waiver, DFS
     makes a request to OPM for the appropriate background investigation based on
     the request of the NRC office to whom the intern will report. Based on a sample
     of intern personnel security records reviewed by auditors, most offices seek L
     clearances for these students. According to the current OPM price list, the
     investigation needed to grant an L clearance costs $135.




                                      17
                                                                 Review of NRC’s Personnel Security Program


                NRC Fails To Benefit From OPM Background Investigations for Summer
                Interns

                OIG reviewed personnel security records for 179 summer interns who terminated
                their employment during FY 2003. The review found that most summer interns
                terminate their employment with NRC either before the OPM background
                investigation results are returned to NRC or, if such results are returned, before
                NRC can adjudicate them in order to grant a security clearance. Eleven of 17
                interns who terminated during FY 2003 never received security clearances. In 4
                of the 11 cases, NRC received the OPM results after the intern terminated. In
                another four cases, the OPM investigative report had not been returned at the
                time of the OIG file review, however, the OPM investigation had not been
                canceled. In three cases, OPM’s report was returned prior to the intern’s
                termination, but NRC did not have time to adjudicate the results before the
                intern’s termination. In the six cases where the interns had security clearances,
                the FY 2003 employment period was not the intern’s first employment period and,
                according to DFS staff, the clearances were probably based on investigative
                results received subsequent to the earlier employment period.

                Based on NRC’s practice of hiring approximately 60 interns each summer, and
                processing most for an L clearance (which costs $135), it appears that the
                agency spends approximately $8,100 on background investigations for summer
                interns each summer. Based on the sample of records OIG reviewed in which
                about 65 percent of the interns did not receive a clearance, it appears that NRC is
                not benefitting from about $5,265 spent on such investigations each summer.

                NRC Begins Hiring Process Too Late to Grant Clearances

                Most summer interns are unable to receive security clearances because NRC’s
                schedule for hiring these individuals does not allow enough time for DFS to
                request and receive the OPM background investigations needed to grant the
                security clearances. According to an HR staff member, the timeline for the
                summer intern hiring process is generally as follows:

                During mid-November, HR requests that office directors determine by December
                30 how many summer interns they will need and in what disciplines for the
                following summer. Based on the response from the office directors, in mid-
                January HR circulates resumes of applicants with the requisite backgrounds to
                the offices, which then select students they would like to hire from this pool. In
                February, HR mails employment offers and security packages to the prospective
                interns. According to the HR staff member responsible for the summer intern
                program, students are given 10 days to contact NRC with a response to the job
                offer, but no deadline has been given for return of the completed security



        9
         These 17 records were part of a random selection of 66 NRC employees who terminated employment
during FY 03.

                                                     18
                                            Review of NRC’s Personnel Security Program


package needed to process the student for a clearance. The staff member said
that the students who accept the employment offer typically return the completed
security package to HR during April. HR then forwards the security forms to DFS
to begin the security clearance process.

According to a DFS staff member, DFS staff make a concerted effort to quickly
process the prospective interns for preappointment investigation waivers and to
submit their paperwork to OPM for background investigations. However, OPM is
generally taking 6 to 9 months to respond to L-clearance background
investigation requests. Thus, these requests would need to be made several
months earlier in a given year in order to obtain a response from OPM that could
be adjudicated for a security clearance in a timely manner. This DFS staff
member was aware that OPM’s response time does not allow for results to be
adjudicated and clearances granted, but said that DFS’ practice is not to cancel
the investigation requests because the results can be used to grant clearances to
interns who return the following summer. As a point of comparison, the U.S.
Department of State summer internship program also requires security
clearances for participants, but requires that the students submit their security
forms by January so that clearances can be issued by May or June of that year.

SUMMARY

By starting the summer intern hiring process earlier during the fiscal year, NRC
can benefit from the dollars it spends on pursuing security clearances for these
employees and can greatly reduce the number of occasions where OPM
background investigations need to be canceled because an intern terminated
his/her employment prior to the completion of the investigations.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

11.    Begin the hiring process for summer interns 1 month earlier each year and
       impose a deadline on students to return the completed security package
       so that security clearances are more likely to be granted prior to or during
       a summer intern’s employment period.

12.    In accordance with OPM policy, inform OPM when an intern terminates
       employment prior to completion of the OPM background investigation.




                                19
                                                       Review of NRC’s Personnel Security Program


IV. CONSOLIDATED LIST OF RECOMMENDATIONS

    OIG recommends that the Executive Director for Operations:

    1.     Submit clearance reinvestigation requests to OPM in time to allow NRC to
           evaluate results in the year the reevaluation is due in accordance with MD 12.3.

    2.     By the end of FY 2004, submit requests for OPM reinvestigations for employees
           with clearances not based on current standards.

    3.     Establish performance measures assessing the timeliness of NRC’s
           reinvestigation program.

    4.     Eliminate the yes/no boxes from the DFS portion of the separation-clearance
           form, and require signature for steps completed in this part of the process.

    5.     Fully implement existing agency policy concerning termination of consultants.

    6.     Fully implement existing agency policy concerning termination of regional
           employees.

    7.     Issue agency guidance specifically concerning return of consultant and regional
           employee badges to DFS.

    8.     Issue specific data entry guidance to DFS staff responsible for entering data into
           IPSS.

    9.     Formalize the ongoing IPSS data cleanup effort by documenting this effort. This
           documentation should include a discussion of resources assigned to the effort
           and a timeline for completion.

    10.    Establish and implement a procedure to validate data accuracy at least annually.

    11.    Begin the hiring process for summer interns 1 month earlier each year and
           impose a deadline on students to return the completed security package so that
           security clearances are more likely to be granted prior to or during a summer
           intern’s employment period.

    12.    In accordance with OPM policy, inform OPM when an intern terminates
           employment prior to completion of the OPM background investigation.




                                            20
                                                 Review of NRC’s Personnel Security Program


V. AGENCY COMMENTS

        On March 9, 2004, the Executive Director for Operations provided comments
        concerning the draft audit report. We modified the report as we determined
        appropriate in response to these comments. Appendix B contains both NRC’s
        comments and our specific response to each.




                                      21
                             Review of NRC’s Personnel Security Program




[Page intentionally left blank.]




                 22
                                                     Review of NRC’s Personnel Security Program

                                                                                    Appendix A
SCOPE AND METHODOLOGY

        This audit reviewed U.S. Nuclear Regulatory Commission (NRC) personnel
        security program policies and practices pertaining to employees to determine
        whether (1) NRC is in compliance with external and internal personnel security
        requirements and (2) NRC’s personnel security program is efficiently managed.
        The audit focused specifically on NRC employees working in NRC headquarters
        and regional office facilities.

        The Office of the Inspector General (OIG) audit team reviewed relevant criteria
        such as The Atomic Energy Act of 1954; Title 10, Part 10, of the Code of Federal
        Regulations, “Criteria and procedures for determining eligibility for access to
        restricted data or national security information or an employment clearance”;
        Executive Order 12968, “Access to Classified Information”; Management Directive
        and Handbook (MD) 10.6, “Use of Consultants and Experts”; MD 10.8,
        “Clearances before Separation or Reassignment”; MD 12.3, “NRC Personnel
        Security Program”; and other agency and Federal documents.

        Auditors interviewed staff in the Division of Facilities and Security, the Office of
        Human Resources, and the Office of the Chief Financial Officer (OCFO) to better
        understand the processes related to security clearance processing and an
        attorney in the Office of the General Counsel to better understand the agency’s
        requirements for denying final pay. Auditors interviewed an Office of Personnel
        Management security appraisal officer to determine NRC’s compliance with
        external requirements and staff at the Department of Energy, the Department of
        Homeland Security, and the National Aeronautics and Space Administration to
        learn about personnel security policies and practices at those agencies. In
        addition, auditors reviewed personnel security case files and payroll files to
        quantify the frequency that employees complete the security portion of the
        separation clearance process. Auditors compared information in the personnel
        security program’s paper files to the corresponding information in the automated
        files in order to assess the reliability of NRC’s personnel security data and other
        issues. Auditors also followed the guidance of an OCFO statistician to analyze
        the outcomes of these file reviews.

        This work was conducted from January 2003 through December 2003, in
        accordance with generally accepted Government auditing standards and included
        a review of management controls related to audit objectives. The work was
        conducted by Vicki Foster, Senior Management Analyst; Judy Gordon, Senior
        Management Analyst; Beth Serepca, Team Leader; and Rebecca Underhill,
        Management Analyst.




                                         23
                                   Review of NRC’s Personnel Security Program

                                                                  Appendix B
AGENCY COMMENTS AND OIG RESPONSE




                          24
                                                           Review of NRC’s Personnel Security Program

                                                                                          Appendix B
OIG RESPONSE

 Below are the agency’s comments to the draft audit report and OIG’s response to each
comment. NRC’s comments appear in bold italics.

 1. Page 1, Background 2nd paragraph - The 3rd sentence is only true for NRC employees,
not for all Federal employees.

 This sentence (which appears on page 1, paragraph 2, of this final report) is accurate as written
per U.S. Office of Personnel Management Federal Investigations Notice, Letter 97-02, therefore,
we made no modification to the wording.

 2. Page 9, paragraph at top of page - We disagree with OIG’s characterization that NRC
reinvestigations were not timely. NRC is required to initiate re-investigations in the year
the re-investigations are required, but is not required to submit them to OPM in the same
year.

 We modified the draft report wording (which appears on page 6, paragraph 3, of this final
report) to clarify that NRC submitted requests for the 125 employees too late for NRC to meet its
own reinvestigation timeliness requirements, which hold the agency to a higher standard than
OPM’s requirements.

 3. Page 9 - The last sentence on the page is not accurate. NRC’s investigative standards
are appropriate and consistent with Federal guidelines.

 The statement (which appears at the end of the first paragraph on page 7 of this final report) is
accurate as written because the 426 employees have L clearances based on a type of
investigation which, since 1997, has not been used to reinvestigate individuals with this type of
clearance. While agencies are being given time to come into compliance with the current
standards, the fact remains that these 426 clearances are not based on the current standards.
Therefore, the wording remains unchanged.

 4. Page 12, Recommendation 1 - There is no NRC or Federal requirement that
investigative results be returned and evaluated within the 5- or 10-year re-investigation
period. OPM will not guarantee a time frame for completion of the investigations. This
recommendation should be deleted.

 We modified the wording of this recommendation (now on page 9) to clarify OIG’s intent that
NRC follow MD 12.3 reinvestigation requirements to reevaluate employees with Q clearances
and LH designations at least every 5 years and employees with L clearances at least every 10
years.

 5. Page 12, Recommendation 2 - NRC investigations are in compliance with Federal
guidelines as acknowledged on the bottom of page 11 of the draft report, “OPM officials
said that NRC’s interpretation of federal requirements is acceptable.”




                                                25
                                                        Review of NRC’s Personnel Security Program

 Although OPM officials said NRC’s interpretation is acceptable, OIG intends that NRC complete
the ongoing DFS effort to bring these individuals into compliance with the current standards.
DFS has recognized this issue and has already been engaged in such an effort on an ad hoc
basis as noted on page 7 of this report. Recommendation 2 (page 9) remains unchanged.




                                             26
